                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                    Inspection of
                                               Embassy Helsinki, Finland

                                         Report Number ISP-I-11-67A, September 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



                     PURPOSE, SCOPE AND METHODOLOGY
                            OF THE INSPECTION
        This inspection was conducted in accordance with the Quality Standards for Inspection and
Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and Efficiency, and
the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for the U.S.
Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the
Broadcasting Board of Governors, and Congress with systematic and independent evaluations of
the operations of the Department and the Broadcasting Board of Governors. Inspections cover
three broad areas, consistent with Section 209 of the Foreign Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with maximum
           efficiency, effectiveness, and economy and whether financial transactions and accounts
           are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the likelihood
           of mismanagement; whether instance of fraud, waste, or abuse exist; and whether
           adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                            i
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED




                                                         United States Department of State
                                                         and the Broadcasting Board of Governors

                                                         Office of Inspector General




                                             PREFACE


        This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability, and
positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                            ii
                               SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                             1
Context                                                   3
Executive Direction                                       4
    Mission Strategic and Resource Plan                   4
    Morale and Locally Employed Staff Issues              5
    Entry-Level Officers                                  5
Policy and Program Implementation                         6
    The Political/Economic Section                        6
    Trade Promotion                                       7
    Law Enforcement Coordination                          7
    Public Affairs Section                                7
    Consular Affairs                                     10
International Broadcasting Bureau                        14
Resource Management                                      15
    Management Office                                    16
    General Services                                     17
    Property Management and Warehousing                  21
    Facilities Management and Real Property              22
    Human Resources                                      23
    Financial Management                                 25
    Information Management and Information Security      26
Quality of Life                                          31
    Community Liaison Office                             31
    Schools                                              31
    American Embassy Employee Association                32
    Health Unit                                          32
    Equal Employment Opportunity                         33
Management Controls                                      34
    Consular Management Controls                         34
List of Recommendations                                  36
List of Informal Recommendations                         38
Principal Officials                                      41
Abbreviations                                            42




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   An energetic, construction savvy, and persistent Ambassador has revived a stalled project
     to renovate the antiquated and unsafe chancery buildings; he is extremely involved in all
     details of the renovation and sees keeping the project on schedule as one of the greatest
     contributions he can make during his time in Finland.

 •   Sections of Embassy Helsinki, including security, management, consular, and public
     diplomacy, were moved from the existing chancery to temporary spaces with little
     planning or advance notice, beginning in September 2010. Eight months later, noisy and
     dirty construction in most of those spaces was only just nearing completion.

 •   In normal times, Embassy Helsinki’s U.S. direct-hire and locally employed (LE) staff are
     rightsized. Ever since (and as a result of) the September 2010 move, frequent telephone
     and computer outages have lowered efficiency, while an active front office has continued
     to generate numerous tasks, which are usually urgent and unanticipated.

 • (b) (5)

     there is no LE staff association to give local staff a formal conduit for raising issues with
     embassy management.

 •   The Ambassador works closely with his public diplomacy staff to carry out an intense
     public speaking and travel program throughout Finland and has pushed them to expand
     the embassy’s reach in social media. This visibility and his focus on energy efficiency
     have burnished America’s positive public image and improved trade and investment
     prospects for U.S. energy related products.

 •   The management section has coped well during a trying time since the move and during
     several years of tight budget constraints. The deputy chief of mission (DCM) is leading
     an effort to regularize procedures and use recently increased and anticipated budget
     allocations wisely.

 •   Converting four of the six Finnish language designated positions to non-language
     designated positions could save $500,000 per 3-year assignment cycle. In a society where
     English is a universal second language, Finnish language skills are largely unnecessary.

 •   The Ambassador chairs the League of Green Embassies, which now includes more than
     70 U.S. missions. The league expects to receive $500,000 from the regional bureau to
     fund energy efficiency improvements at other missions throughout the Bureau of
     European and Eurasian Affairs (EUR) region. To date, staffing and procedures have been
     informal and partially fall on already busy sections at Embassy Helsinki. It is time to
     clearly define this initiative and establish procedures for managing League of Green
     Embassies funds.



                                         1
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


   •   The political/economic section has done well in understanding and reporting on new
       developments in Finnish politics, including the rise of the True Finn Party. Economic
       developments, of particular interest to U.S. Government consumers, need more attention
       from the combined section.


       The inspection took place in Washington, DC, between April 18 and May 11, 2011, and
in Helsinki, Finland, between May 13 and 27, 2011. (b) (6)




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        Nestled in Europe’s northeast corner, Finland is located between Sweden and Russia.
Europe’s eighth largest nation, Finland is also its most sparsely populated. The majority of its
5.4 million people reside in the more temperate southern region, which also serves as a gateway
to Russia and the Baltic nations.

         Mindful of past wars and the then-Soviet Union’s looming presence, Finland maintained
strict neutrality during the Cold War. Since the dissolution of the Soviet Union, however,
Finland has moved toward integration into Western institutions. It became a member of the
European Union in 1995 and the Euro Zone in 1999—the only Nordic country to do so. It joined
the North Atlantic Treaty Organization’s (NATO) Partnership for Peace in 1994 and contributes
to NATO operations in Kosovo and Afghanistan. At least some Finnish politicians favorably
view eventual NATO membership.

        Not all Finns have been happy with this rapid Western integration, however. The
influence of the European Union in changing domestic Finnish regulations; the costs of financial
bailouts for Greece, Ireland, and Portugal; and a growing immigrant population have caused
unease and led to the success of the True Finns, a populist/nationalist party, in the April 2011
parliamentary election.

         Finland’s economy is based on services, manufacturing, and refining, with exports
accounting for 37 percent of gross domestic product in 2009. In 2010, Finland ranked 7th in the
World Economic Council’s global competitiveness index. Known for its high tech companies,
Finland has made universal broadband access a legal right. The per capita gross domestic
product in 2009 was $33,314. The country is still recovering from the international economic
crisis; in 2010, gross domestic product growth was 3.1 percent.

        U.S. relations with Finland are warm, bolstered by the March 2011 visit of Vice President
Biden, the first high level U.S. visitor since President Clinton in 1997. American firms are
interested in Finland, both as a market for trade and investment and as a gateway to Russia and
the Baltic region. U.S. policy is focused largely on encouraging Finland’s constructive
engagement in regional and global challenges, particularly through NATO, and on supporting
expanded American trade and investment.

         Embassy Helsinki hosts the Department and three other agencies. Its total staffing of 126
includes 45 direct-hire Americans, 76 LE staff members, and 5 eligible family members. At the
time of the inspection, the embassy was undergoing a long overdue renovation. The Ambassador
is using the building renovation to highlight U.S. green technology. The renovated annex will be
the first embassy to achieve Leadership in Energy and Environmental Design platinum status.




                                          3
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Together, an energetic Ambassador and a competent DCM provide effective leadership at
Embassy Helsinki. Most agency heads and section chiefs work well with both and perceive no
differences between them on major issues. The two hold a weekly country team meeting to bring
all elements of Embassy Helsinki together and to exchange information and views on cross-
cutting issues. The meeting is open to LE staff, but few of them participate now that most have
been relocated to temporary spaces at a distance from the chancery. The tone of these meetings is
relaxed and collegial; participants appear comfortable in expressing their opinions and raising
new issues.

        To bring the Ambassador and DCM in more frequent contact with more of the staff and
to counter perceptions that the Ambassador does not care about the morale of his employees, the
OIG team suggested that the venue for country team meetings be rotated among the five
currently occupied sites, so that every other session takes place in one of the temporary spaces.
One such meeting took place in the security swing space near the end of the OIG team’s visit to
Helsinki.

       Informal Recommendation 1: Embassy Helsinki should hold a country team meeting
       every other week at one of the temporary office spaces.

       The Ambassador and DCM also hold more restricted weekly meetings with key
American staff. Each also meets, generally weekly, with various sections or section chiefs. The
meeting structure appears appropriate to the relatively small size of Embassy Helsinki.

Mission Strategic and Resource Plan

        Embassy Helsinki completed and submitted its FY 2013 Mission Strategic and Resource
Plan (MSRP) to the Department during the course of the inspection. The new plan retains the
five goals of the previous MSRP, updates performance indicators, and opens with a well
reasoned and thorough chief of mission statement. The Ambassador is deeply and personally
engaged in three of the five goals: the embassy renovation, promoting environmental and energy
innovation, and increasing U.S. trade and investment. The Bureau of Overseas Buildings
Operations (OBO) acknowledges that the embassy renovation project would not have been
funded or advanced at an accelerated pace without the constant pressure of the Ambassador, both
from Helsinki and during frequent trips to Washington. In more than two dozen trips within
Finland, he has used speeches, press interviews, and meetings with local officials to display U.S.
green energy developments and allay Finnish suspicions that the U.S. Government is not
interested in energy conservation. He also supports American firms, particularly in the energy
and high-tech fields, that are interested in increasing their presence in Finland and using it as a
base for expansion in the Baltic nations and Russia. With regard to other MSRP goals, the
Ambassador and DCM lead a successful country team effort to analyze and report on Finland’s
rapidly evolving domestic political scene and the potential effects on its role in the European
Union and as a NATO partner.



                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Morale and Locally Employed Staff Issues
         The inspection occurred during a time of considerable upheaval in Embassy Helsinki.
Once funding for the embassy renovation was assured, and because of a variety of safety and
other concerns, the embassy annex was closed. In September 2010, and with little advance notice
or planning, the security, management, public diplomacy, and consular sections moved to
temporary off-site locations. Other elements of the mission moved into cramped quarters in the
original chancery. (To allow for access to the public, half of the consular section remained in the
annex until January 2011.) From September 2010 until May 2011, employees’ work performance
has been hampered by required security upgrades and other projects in their work spaces.
Telephones and computers have not functioned for long periods of time, and employees have had
little information about when their work environment would become stable.
       (b) (5)


                     It is clear that employees do not question the need to renovate the dilapidated
and unsafe facilities at Embassy Helsinki. Many also understand that without the Ambassador’s
persistence, the project would not be underway (a judgment shared by OBO). Concerns focus on
the poorly planned move, the ensuing 9 months of noisy and dirty construction, and the lack of
information about what comes next. (b) (5)



       (b) (5)                                                           After being counseled
by the inspectors, the Ambassador took some immediate steps to increase communication, such
as holding a town hall meeting and changing the venue for the country team meeting. The
absence of a fully constituted and functioning LE staff committee has exacerbated the
communication problem. A previous committee ceased to function at least 5 years ago. At the
time of the inspection, a group of six self-appointed LE staff members were developing a
constitutional framework and thinking of moving toward a formal election by year’s end. It
would be beneficial for embassy management to work with these and other local employees to
form a committee, make sure it represents the various components of the LE staff, and meet with
this committee regularly to develop and pursue a relevant agenda. The management officer
should meet with this committee regularly, perhaps as often as once a month, and the DCM
should meet with the committee quarterly.
Recommendation 1: Embassy Helsinki should work with its locally employed staff to
establish a representative, elected, locally employed staff committee, and should meet with this
committee on a regular basis to recognize and resolve issues of interest to locally employed
staff. (Action: Embassy Helsinki)
Entry-Level Officers

       Embassy Helsinki has a small complement of nontenured, first- and second-tour officers
and specialists. One praised the DCM for his approachability and informality, and for the good
advice he had given him during their association. The DCM had not included specialists in his
mentoring program but was open to the suggestion that he do so. One untenured information
management (IM) specialist is currently at the mission.
                                                5
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
       Embassy Helsinki hosts BBG, the Department of Defense, and the U.S. Foreign
Commercial Service. Department section heads coordinate and have close collegial relationships
with the other agency representatives.

The Political/Economic Section

        Embassy Helsinki has a four-officer political/economic section, headed by an
experienced FS-02 political officer. There are three other positions: an FS-02 political/military
officer; an FS-03 environment, science, technology, and health (ESTH) officer; and an entry-
level officer. An LE U.S. citizen office manager, an LE political assistant, and an LE economic
specialist assist the section’s officers. The section is adequately staffed, although all four of the
section’s officers were scheduled to leave during the summer, an unfortunate result of the three
officers routinely rotating and one officer leaving the embassy early.

        The section’s agenda is driven by U.S. efforts to influence Finland’s voice in the
European Union, strengthen its role in international crisis management (including in
Afghanistan), and build a strong partnership in a range of global issues, including the
environment. The section’s advocacy and reporting support MSRP goals. The Ambassador
generally delegates responsibility for advocating U.S. political and economic foreign policy
objectives to the DCM and the political/economic section chief, as he pursues other priorities
involving green initiatives and commercial advocacy. The section maintains productive relations
with a variety of Finnish official, civil society, commercial, and academic contacts. Well
organized weekly staff meetings help ensure good communication within the section, which
recently was moved to cramped office space within the chancery for the duration of the above
mentioned, multiyear renovation project.

         Until the summer of 2009, Embassy Helsinki had separate political and economic
sections. According to U.S. Government end users, merging the sections coincided with a fall-off
in economic reporting. The OIG team confirmed a higher proportion of political reports in the
past year, which is only partially attributable to increased demands on the section’s economic
staff to support front office requests.

       Informal Recommendation 2: Embassy Helsinki should coordinate with the Office of
       Nordic and Baltic Affairs, to develop and implement a revised reporting plan that reflects
       U.S. Government consumers’ interest in more frequent reporting, including more
       economic reporting.

        U.S. Government consumers found, and the section itself agreed, the frequency of past
reporting was not what it should have been. This situation improved, at least on the political side,
during the months leading up to and after the pivotal April 2011 parliamentary election.
Washington consumers praised the quality of this pre-election reporting—in particular, the
section’s analysis of the growing strength of the populist True Finn Party. Reportable material
that does not rise to the level of a stand-alone cable is reported in a compilation, entitled the
Helsinki Pol/Econ Weekly. The OIG team suggested that the section distribute this product more
broadly by posting it on the U.S. Government’s intranet.

                                            6
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The ESTH officer’s portfolio meshes closely with the Ambassador’s focus on green
technology. Consequently, the section spends much time and energy working with the front
office, the public affairs section (PAS), and the Foreign Commercial Service to support events
for the Ambassador, who is in demand as a speaker and who initiates many green technology
related visits to Finland from the United States. At the Ambassador’s request, the ESTH officer
began producing a weekly ESTH report to update him on relevant developments. The section
subsequently broadened the weekly report’s distribution via cable. The OIG team suggested that
this product, too, be disseminated on the U.S. Government’s intranet, and that the section
provide U.S. Government consumers with spot reports and analyses of ESTH issues beyond the
weekly newsletter.

        The section has reduced its paper files and depends increasingly on electronic filing.
However, the electronic filing system is not properly organized. The paper files, while reduced in
volume, have not been retired, in accordance with regulations (5 FAM 433; 5 FAH-4 H-300). As
a result of the poorly organized files, information is difficult to retrieve.

Recommendation 2: Embassy Helsinki should bring its political/economic section’s files into
compliance with Department of State regulations on records management. (Action: Embassy
Helsinki)

Trade Promotion

        The political/economic section ably assists the U.S. Foreign Commercial Service in
support of the Ambassador’s energetic trade promotion initiatives. In FY 2010, Helsinki’s U.S.
Foreign Commercial Service office was responsible for $112 million in U.S. export promotion,
making it the strongest performing office in Europe, when comparing the dollar value of exports
against the gross domestic product of the target market. The political/economic section supports
these efforts, mostly by helping arrange green technology visits and providing briefings for U.S.
business people.

Law Enforcement Coordination

        The regional security officer is the only law enforcement officer at Embassy Helsinki.
Regional representatives from the Department of Homeland Security, Federal Bureau of
Investigation, and Drug Enforcement Administration visit quarterly. Other U.S. Government law
enforcement representatives come to the embassy as needed. The regional security officer
maintains collegial relations with the other agencies, which advise him on matters affecting
Finland. A political/economic section officer also engages Finnish law enforcement officials on
policy related issues. This officer and the regional security officer enjoy a good working
relationship. The regional security officer’s relations with Finnish law enforcement authorities
also are very good.

Public Affairs Section

        In the past year, PAS has overcome a legacy of estrangement from the rest of the
embassy that had marginalized the section, cost it effective control over its own budget, (b)
(b) (5)                                                                                   (5)
                                                         The change began with the arrival    of a
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

new PAS leadership team, including a management-coned public affairs officer (PAO) of
Finnish extraction with the administrative skills (b) (5)
          he cultural sensitivity to reverse poor morale among the section’s eight LE staff
members. Since then, PAS has largely regained the Ambassador’s trust as well as control of its
own budget, and it has repaired relationships with other embassy sections.

         The PAO and her public diplomacy experienced assistant PAO also have improved
(b) (5)           the section, a signal achievement in view of the troubling disruptions caused by
the section having to move out of its offices in a chancery annex to swing space which, months
later, is still under construction. PAS moved into its new offices in late September 2010, but the
embassy did not connect the section to the Department’s Sensitive But Unclassified intranet until
over a month later, and staff did not have working phones for almost 2 months. On the other
hand, the PAO’s relative inexperience in public diplomacy and her desire to reverse the section’s
difficult relations with the front office created other issues. She and her able assistant PAO are
addressing those issues successfully. The Ambassador, embassy section heads, and local staff—
both in PAS and in other parts of the embassy—speak highly of the deputy, particularly his
ability to get to the heart of an issue quickly and come up with a practical solution. The PAO has
taken advantage of the assistant PAO’s skills and experience.

Use of Social Media

        In response to the Ambassador’s strong personal interest in social media and the
technological sophistication of the host country, PAS Helsinki significantly expanded its social
media toolkit, hiring a consultant to guide initial efforts. It also is providing comprehensive
training in video production to make the visual content of its social media sites more compelling.

        The embassy’s Web site features a blog entitled, Ambassador’s Journal, with links to his
official Facebook, YouTube, Twitter, and Flickr accounts. The Ambassador provides content for
the sites, with PAS’s American Resource Center overseeing technical management.
Unfortunately, content is not updated often. As of May 2011, the last blog posted in the
Ambassador’s Journal was in mid-January, and the last posting to his Facebook page was at the
end of March. The social media sites managed by PAS were more current, with daily inputs.

        Keeping the mission’s multiple social media sites current is likely to become more
difficult. The American Resource Center is taking on management (supposedly temporary) of the
Web site of the League of Green Embassies; the Ambassador has recently assumed leadership of
the league and is exceptionally interested in its issues. This new responsibility will increase the
Center’s workload and further strain PAS’s efforts to keep social media sites updated. The
section needs to work with the Ambassador and mission elements to prevent the embassy from
overreaching in its social media efforts. By not updating sites frequently enough, the PAS might
discourage the very audiences it wants to attract.

          Informal Recommendation 3: Embassy Helsinki should examine its multiple social
          media sites and determine how many of them it can adequately maintain, developing
          those with largest audience share and eliminating others.



                                            8
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


The American Resource Center

        In addition to its Web site activities and more traditional role of providing reference and
research material on U.S. history, culture, and politics, the American Resource Center (called the
Information Resource Center at other posts) provides graphic design services for mission
programs and sponsors a popular America@Your Library program. Through this program, the
embassy donates books on American themes to school and community libraries, to maintain a
continuing U.S. presence throughout Finland. According to the Washington-based information
resource officer, the Helsinki center is the strongest unit in her European region. She is helping
to update its collection, in anticipation of the center’s move in 2012 to the University of
Helsinki’s ultramodern library, a short distance away from its current home at Finland’s National
Library in downtown Helsinki. PAS believes this new location will increase foot traffic by
students, a much sought after demographic. Moreover, the space is being provided at no cost to
the U.S. Government, in return for integrating the center’s book collection into the university’s
library holdings.

Exchange Programs

        PAS has an active and well run exchange program. The Finland–U.S. Educational
Exchange Commission oversees the Fulbright scholarship program. Officials responsible for
European Fulbright programs in the Department call Finland’s Fulbright commission a “model
program.” They also say its executive director is one of the best in the Fulbright network, citing
her work persuading Finnish academic and philanthropic communities to invest in Fulbright
exchanges. For example, out of the program’s FY 2010 budget of over $2.1 million, just under
$700,000 (or about a third) came from the U.S. and Finnish Governments. Almost $425,000
came from interest and investment income from the Finland–America Educational Trust Fund
(an endowment derived from the repayment of a 1919 Finnish debt to the United States), and
almost $1 million dollars came from a variety of purely Finnish sources. The director also
positioned the commission to be a part of one of Finland’s most ambitious higher education
projects—the creation of Aalto University from the merger of three highly regarded Finnish
universities—by sponsoring a distinguished chair for an American scholar. The Finnish
Government intends for Aalto to be one of the leading teaching and research institutions in the
world, and Fulbright will have a presence there from the start.

        Thanks to a push from the Ambassador and unexpected funding at the end of FY 2010,
PAS Helsinki invested $60,000 in a summer exchange program to send 15 Finnish high school
students on a short trip to the United States. The trip will showcase U.S. energy innovation, and it
mirrors a Finnish program that brings 14 American students to Finland each summer. Should the
new, embassy-sponsored program be as successful as envisioned, and should the budget continue
to tighten, it will be necessary to find supplementary funding sources for future youth exchanges.

       Informal Recommendation 4: Embassy Helsinki should develop a plan to tap private
       sector sources to continue or expand its new youth exchange program.

Public Affairs Section Grants

        The section has used public diplomacy grants to further multiple section and mission
goals. As described above, grants have funded the youth exchange program, as well as cultural
                                               9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and library programs; short visits to NATO by journalists and Finnish parliamentarians;
workshops to engage minority immigrant populations; and an alumni coordinator position at the
Fulbright Commission. The grants files are in excellent order, with all required documentation
provided. The current PAO has a grants warrant; the assistant PAO does not. It is imperative that
the assistant PAO obtain one as soon as possible, as he will become the PAO this summer. Since
PAS Helsinki has an active grants program, the new assistant PAO also should obtain a grants
warrant before arriving.

       Informal Recommendation 5: Embassy Helsinki should require the public affairs
       officer-designate and the new assistant public affairs officer to take grants management
       training and obtain grants warrants prior to assuming their new positions.

         The PAO and assistant PAO intend to develop a strategic focus for PAS programs and
resources. The OIG team concurs that developing such a strategy is necessary. Money will be
tighter, but demands on the section will continue to grow, especially in view of the
Ambassador’s chairmanship of the League of Green Embassies. It will be important for PAS
officers and staff to work closely, to prioritize the multiple demands on their time and resources
by the front office and other embassy sections. PAS leadership will need to keep the section
focused on not only the immediate mission objectives but also the cultural and other programs
that serve the long-term goals of mutual understanding.

Consular Affairs

General Management/Workspace

      Notwithstanding that they have been working in extraordinary circumstances from
September 2010 to May 2011, the consular section in Helsinki is running smoothly and has very
good morale, a result of excellent leadership. It is appropriately staffed.

        At the end of September 2010, citing fire and safety risks, the embassy closed the annex
and precipitously moved out the employees. Because it needed hardline interview windows,
however, half the consular section was allowed to remain in the unsafe annex—while it was
being gutted—to attend to the public. The other half of the eight-person section moved to the
swing space across town, which also was under construction. In February 2011, the embassy
moved the interview windows to the swing space and opened the new consular section to the
public.

        The consular section now is located on the 5th floor of a commercial office building in
the center of town. It is near a Helsinki Metro stop and the main railroad station, and around the
corner from the embassy’s temporary management office. According to current plans, the
consular section would be the last to return to the chancery following the renovation, currently
scheduled to take place in 2014.

        The current space, which is still under construction (the hardline doors may not be
completely installed until the end of July 2011), has many shortcomings. Nonabsorbing materials
on the floor, ceiling, and walls create a discernable echo in the interview booths. As a result,
consular employees have difficulty hearing clients.

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 3: Embassy Helsinki, in coordination with the Bureau of Overseas Buildings
Operations, should install sound absorbing materials on both sides of the consular interview
windows, including the floor, ceiling, and walls. (Action: Embassy Helsinki, in coordination
with OBO)
          (b) (5)




Recommendation 4: (b) (5)


        Consular staff serves the public through three interview windows, one of which has been
partitioned off as a cashier booth. The cashier shares one of the three interview windows (b)
(b) (5)                                                                                (5)




Recommendation 5: (b) (5)



Long-Term Use of Swing Space

        The embassy and the Bureau of Consular Affairs have been considering leaving the
consular section in the swing space permanently, rather than moving it back to the chancery at
the end of the renovation. However, the savings that could be achieved by keeping the consular
section in the swing space need to be balanced with the costs.

Factors in favor of remaining in the swing space include:
       • Longer use of the investment made to upgrade the temporary work area.
       • Convenience to consular employees. The space is located next to a metro stop, which
            reduces average commutes by about 20 minutes each way.
       • Convenience to the public. The space is located downtown, (although the embassy
            was only a 5-minute walk from a tram stop).

Factors in favor of returning the consular section to the embassy:
       • Mission Cohesion: The consular section would not be isolated from the embassy.
       • Security: The embassy would not need to obtain a new colocation waiver. Also,
            consular officers would have easier access to classified information.


                                         11
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


        •   Accountability: If the Class B cashier moved back to the chancery and the consular
            section remained downtown, the distance between the offices would complicate end-
            of-day cash deposits.
        •   Interview Windows: The section needs five interview windows, including a cashier
            window. The swing space has only three.
        •   Privacy: There are no private interview booths in the swing space.
        •   Security Screening: The small screening area for consular clients limits appointments
            to three people at a time. The rest must wait in the stairwell or downstairs.
        •   Space: Remaining in the swing space would necessitate incorporating additional
            space along another arm of the L-shaped office, (b) (5)


        The hastily executed swing space could be used in the long term only with a significant
investment to bring it up to standards. The Department can decide which option is best only after
OBO determines the detailed plans and projected costs of both options. Since the projected move
will not occur for years, an immediate decision is not required. Because a move back to the
chancery would cause significant inconvenience to the consular staff, however, planning for the
process should be transparent and inclusive.

Visas

        Embassy Helsinki has a full-service visa operation. A nonimmigrant visa waiver country,
Finland still generates several thousand non-tourist/business visa applications a year. In addition,
a diverse third-country national clientele adds variety to the workload. The immigrant workload
is small. The Department is evaluating the consolidation of immigrant visa processing in the
region, a worthy goal. The OIG team found that visa processing in Helsinki generally complied
with Department guidance, with the consul appropriately asking the Department for advice in
unusual cases.

        The embassy had not processed any visa referrals in the 12 months from May 2010 to
May 2011. Section chiefs reported that the Finns do not ask for visa favors. At the time of the
inspection, the embassy’s visa referral policy was not fully consistent with 9 FAM, Appendix K,
Exhibit I, and the management counselor, rather than the front office, had distributed the policy.
During the inspection, the Ambassador reissued the policy, which now conforms to regulations.
In addition, the consular chief had not briefed most of the section chiefs on visa referral
procedures. Properly training the embassy staff will equip them to appropriately handle all
inquiries about visas.

        Informal Recommendation 6: Embassy Helsinki should provide a visa referral class for
        all section chiefs, agency heads, and their office management specialists.

Visas Viper

        The DCM holds Visas Viper meetings monthly; the results of the meetings have been
transmitted to the Department on time in 9 of the 12 months from May 2010 to May 2011. Three
reports were late. There were no submissions during the period examined.

                                          12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


American Citizens Services

        Embassy Helsinki’s consular section provides good American citizens services. An increase
in tourism, especially from large cruise ships, has increased workload, but not to the extent that it
strains resources. The consular section occasionally assists medical evacuations from states of the
former Soviet Union. Reflecting the high penetration by cellular phones and the Internet in Finland,
the section relies on direct communication to notify U.S. citizens of emergencies.

Fraud

        The embassy’s third-country visa applicants occasionally attempt to commit consular
fraud. A seasoned consular Foreign Service national manages the section’s antifraud efforts
appropriately. During the OIG team’s visit, a Finnish airport immigration official detained a
possible imposter from West Africa using a U.S. passport. The consular section promptly and
efficiently coordinated with the host government law enforcement to confirm the fraud. The
Finnish Government deported the perpetrator back to Africa.




                                         13
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


International Broadcasting Bureau
        The International Broadcasting Bureau maintains a regional technical monitoring office
in Vantaa, a suburb of Helsinki. The OIG team visited the Vantaa office and found no problems
with its operations.

        Two Finnish employees manage the facility, which monitors the technical quality and
signal strength of International Broadcasting Bureau sponsored broadcasts, including Radio Free
Europe, via a network of 20 live (human) monitors and 10 remote (computerized) monitors. The
monitors are located largely in the former Soviet Union and its periphery. International
Broadcasting Bureau Vantaa personnel receive and analyze data from the monitors and attempt
to find solutions for problems causing poor transmission quality. Although some of the office’s
work might be done in Washington, the International Broadcasting Bureau official responsible
for overseeing the office’s operations believes the work could not be done as well in the United
States, citing the Vantaa staff’s ability to distinguish between the multiplicity of languages
monitored, identify the sources of interference, and take quick corrective action.

        The Vantaa station works closely and well with the embassy’s security and management
offices. The station’s security posture meets or exceeds requirements. The monitoring station
uses International Cooperative Administrative Support Services (ICASS) to handle time and
attendance, travel, and vouchers for its own personnel and to pay the hourly salaries of its
International Broadcasting Bureau funded live monitors. The monitoring station has an
independent computer system that is connected to International Broadcasting Bureau
Washington; staff uses a remote access device to connect to the Department’s OpenNet computer
system.




                                         14
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management
Agency                   U.S. Direct-      U.S.        Locally          Total           Total
                          Hire Staff       Local      Employed          Staff          Funding
                        (Authorized)       Hire         Staff                          FY 2010
                                           Staff     (Authorized)

Department –                   22           1              11            34        $3,317,478
Diplomatic &
Consular Programs
Department – ICASS              2           4              38            44        $5,844,300
Department – Public             2                           8            10        $1,041,300
Diplomacy
Department –                    3                           1              4       $1,418,719
Diplomatic Security
Department – Marine             6                           8            14        $ 309,927
Security
Department –                                                                       $    35,700
Representation
Department – Public                                                                $     9,200
Diplomacy
Representation
Department – OBO                1                           1              2       $3,391,940
Defense Attaché                 7                           2              9       $ 515,870
Office
Office of Defense               1                           1              2       $ 217,923
Cooperation
Foreign Commercial              1                           4              5       $ 536,533
Service
Broadcasting Board                                          2              2       $ 386,000
of Governors


Totals                         45           5              76           126      $17,024,890

Management Overview

         In general, Embassy Helsinki is well funded and appropriately staffed. The OBO funding
for routine maintenance and repair, however, is not sufficient and staffing of management offices
is lean. Embassy Helsinki received a FY 2010 end-of-year infusion of diplomatic and consular
program funding of $1.3 million. The just received FY 2011 budget appears to be in line with
mission requirements. EUR has promised $500,000 for a League of Green Embassies initiative
to place U.S. energy-efficient manufactured products in other U.S. embassies in the league.
                                         15
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The mission’s overriding management priority has been preparing for, accomplishing,
and now adjusting to the move to three swing space locations and preparing for a major chancery
rehabilitation project. The dislocation of offices and the lack of reliable telephone and computer
capability during this period understandably contributed to a degradation of management
services. Once the swing space modifications are completed, management operations should be
better positioned to deliver reliable services.

Management Office

         The management counselor, a strong and experienced leader, also performs the human
resources and financial management duties. A first-time general services officer (GSO) and a
first-tour facility manager assist him. Three IM officers and three eligible family members
complete this section. The LE staff is, for the most part, well trained, competent, and service
oriented.

         The urgent and unplanned relocation of staff from the embassy annex, due to fire and
safety concerns, placed a heavy burden on management. Locating and leasing three office
locations; moving staff, furniture, and equipment; setting up phone and network connections; and
renovating spaces to meet the Bureau of Diplomatic Security and consular requirements all
challenged the management team. Difficulties and failures, most notably those related to phone
and computers, prompted understandable outcries. The overall 2011 ICASS score was slightly
below both the EUR 2011 and Helsinki’s 2010 scores. Scores of the OIG workplace and quality
of life questionnaire also confirm a general dissatisfaction with aspects of management services,
facilities, housing, internal telephone, medical unit, and the community liaison office (CLO). The
OIG team’s work in Helsinki confirmed these views.

       Two MSRP goals guide the management office: protecting the environment and
promoting energy innovation; and renovating, rightsizing, and securing the chancery, annex
building, and chief of mission residence.

       These two goals intersect in the Ambassador’s advocacy of green technology as a
keystone of the chancery renovation. Broadening his impact, the Ambassador is the chairman of
the League of Green Embassies. The League of Green Embassies staffing in Helsinki will
increase when EUR transfers an eligible family member position currently at Embassy Kyiv to
Helsinki. The League of Green Embassies agenda will expand with the above mentioned
$500,000 in funding from EUR. These funds are to be used by the ambassadors of other EUR
missions in the U.S. League of Green Embassies to purchase green products for their missions.

       Embassy Helsinki will provide oversight for the initiative, but it has not fully considered
the impact of this new role on its operations. Moreover, EUR has not provided formal guidance
and procedures for how the League of Green Embassies funds should be used. Without clear
guidelines and procedures, participating embassies might not make optimal use of the League of
Green Embassies funds, and it may be difficult to maintain a careful accounting.

Recommendation 6: The Bureau of European and Eurasian Affairs should provide Embassy
Helsinki with guidelines and procedures for allocating and controlling the League of Green
Embassies Funds. (Action: EUR, in coordination with Embassy Helsinki)

                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        As noted elsewhere, Embassy Helsinki is in the first stages of an $82 million
rehabilitation project. The Office of Acquisition Management has not yet awarded this contract,
but demolition of the interior of the annex building has begun as part of a sewer project in the
annex and chancery buildings. In addition to renovating the annex building and chief of mission
residence, a controlled access area will be constructed. Completion dates for each building
varies; the annex is slated to be finished first, in January 2013.

General Services

       The GSO is supported by an American citizen LE general services assistant. The GSO
has overall responsibility for the entire operation and directly manages housing, motor pool, mail
operations, procurement, and travel. The general services assistant oversees property
management and warehousing, customs and shipping, and the material movement operation.
Twenty other LE staff members work in general services.

Housing

         The housing section is a one-person operation that works well with the interagency
housing board. Survey respondents flagged the quality of housing as a community concern. In
addition to the government-owned chief of mission residence and DCM’s residence, there are 10
other government-owned residences, as well as 32 short-term leased residences. The chief issue
affecting housing is the move to sell six poorly maintained properties at a time when the mission
finds it difficult to obtain suitable leased housing for 10 incoming families. Also, the mission is
looking for a new Marine security guard quarters for its downsized Marine security guard
detachment.

        While it might be in Embassy Helsinki’s best interests to keep several of the properties
that are designated to be sold, the long-term lack of adequate maintenance funding argues against
keeping them, and OBO has granted permission to sell the properties. The properties will be
appraised soon. One strategy is to sell the four Kavallintie properties to an investor, then lease
them back once needed repairs and maintenance are done.

        The OIG team believes that a business case also could be made for selling one of the
Kavallintie properties and allowing the embassy to keep the proceeds of the sale to rehabilitate
the other three. The projected savings of some $190,000 a year should, over time, exceed the
costs to rehabilitate the three properties—and the U.S. Government would retain valuable assets.
The four Kavallintie properties are either three- or four-bedroom, duplex homes in a shared
development/association that includes two non-government-owned properties. Assignments to
these properties are complicated by outstanding health concerns related to mold and moisture
problems.

       The OIG team supports the embassy’s efforts to request additional funds from OBO for
preventive maintenance and repair of its government-owned housing. Doing so would alleviate
the need to sell the remaining, deteriorating properties and replace them with leases, which
would cost much more over time than maintaining the government-owned residences.



                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 7: Embassy Helsinki should develop and submit to the Bureau of Overseas
Buildings Operations a business case for selling one of the four Kavallintie properties and
retaining the proceeds of the sale to rehabilitate the remaining three properties. (Action: Embassy
Helsinki, in coordination with OBO)

       Embassy Helsinki is considering rescinding its request to sell the Kulosaarentie
residence, as it is being considered for the site of a Marine security guard quarters. If the
property is to be used for this purpose, the embassy will need to obtain a Bureau of Diplomatic
Security setback waiver. The Ambassador would like to demolish and replace it with a prototype,
energy-efficient residence. A second option calls for solving the property’s longstanding
moisture and drainage problems, renovating it, and adding additional space.

Motor Pool

        The motor pool consists of a dispatcher, two full-time drivers, and one half-time driver.
Start times are only slightly staggered. Motor pool drivers back up the Marine security guard’s
drivers. Because of overtime costs and the Department’s 10-hour driving shift limit, Embassy
Helsinki wants to convert the half-time driver to full-time. The OIG team supports this change.
Embassy Helsinki employees either drive motor pool vehicles themselves or use mission-
provided taxi cards for official travel. Transportation on public transportation is also common.
One of the motor pool’s concerns is the short lead time provided for weekend travel needs.
Assigning drivers for weekend duty is difficult when the request arrives on a Friday afternoon.
The Ambassador’s office manager is best positioned to inform the motor pool of upcoming trips,
as she handles the Ambassador’s schedule.

       Informal Recommendation 7: Embassy Helsinki should require the Ambassador’s
       office manager to provide the motor pool dispatcher with the Ambassador’s weekend
       driver requirements by noon Friday, whenever possible.

      Drivers have not had their required medical or vision examinations. Doing so should
become a regular requirement of employment.

       Informal Recommendation 8: Embassy Helsinki should arrange for the drivers to take
       their required vision and physical examinations.

       The motor pool has 20 vehicles, including one each for the Ambassador, DCM, and
engineering security officer. There are two Marine security guard vehicles, five Malmi warehouse
vehicles, and three facilities maintenance/gardening vehicles. The remaining motor pool vehicles
are general purpose. In the coming months, the unit will dispose of an old ICASS vehicle and
acquire three diplomatic and consular program vehicles, two of which are hybrids and the other a
minivan. The use of swing spaces downtown and at Malmi during the renovation places a heavier
burden on motor pool resources, so the vehicle fleet will be larger than normal in the short run.
Over time, the embassy will continue to rationalize the motor pool fleet to reflect mission needs.

Diplomatic Pouch Mail

        The diplomatic pouch mail operation, which resides in a temporary structure, typically is
part of the IM office. The two-person operation moved to the general services office several

                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

years ago. The supervisor maintains a close working relationship with the material movement
section in Malmi.

        The mailroom clerk, an ICASS employee, is an eligible family member who has been
detailed to the League of Green Embassies for 20 hours a week. His position description does
not reflect the change in duties. Plans call for EUR to move a League of Green Embassies
position from Embassy Kyiv to Embassy Helsinki. As a result, the mailroom staffing has been
reduced 25 percent, which has strained its operations. In addition, the employee is on the
ICASS payroll, but is not doing ICASS related work.

       Informal Recommendation 9: Embassy Helsinki should return the mailroom clerk to
       his assigned position.
       (b) (5)



       Informal Recommendation 10: (b) (5)


Procurement

        The one-person procurement section performs simplified acquisition tasks adequately,
but lacks a strong grasp of contracting. There are three purchase card holders, which appears to
be appropriate. One card holder uses the card only for secure purchases, which are appropriately
done in person. There are five blanket purchase agreements for taxi services and vehicle
maintenance, and two indefinite delivery/indefinite quantity contracts for vehicle rental and hotel
rooms. The local guard contract expires in 2013; the Office of Acquisition Management will
handle the follow-on contract.

        There have been a number of unauthorized commitments, which the office has addressed
locally or referred to the Office of the Procurement Executive for ratification. Ariba, the
Department’s Integrated Logistics Management System’s procurement function, has been cited
as a cause for some of these unauthorized commitments, as obligations take days to appear in the
system. Other procurements have occurred outside of normal procurement channels,
necessitating a follow-on procurement action. The management officer said that the embassy will
reissue its management notice on how to avoid making unauthorized commitments.

       Informal Recommendation 11: Embassy Helsinki should meet with all individuals who
       participate in procurement and educate them about proper procurement procedures and
       how to avoid unauthorized commitments.

        At the close of FY 2010, the embassy received approximately $1.3 million in diplomatic
and consular program funds, which it managed to obligate, even though it lacked an acquisition
plan. (For FY 2011, the embassy will create an acquisition plan to address possible year-end
funding.) In addition to other projects, year-end funding was spent for landscaping and driveway
paving at the chief of mission and DCM’s residences, as well as for light emitting diode lights. A


                                          19
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

purchase order for lighting at the DCM’s residence has not yet been processed, because specific
requirements have not been determined.

         Informal Recommendation 12: Embassy Helsinki should determine the specific lighting
         requirements at the deputy chief of mission’s residence and process this procurement.

         The procurement section has not prepared a contract for Finnish workers’ compensation,
group life insurance, and unemployment insurance, even though the Office of Overseas
Employment authorized it in August 2009 and EUR has funded it. As this LE staff benefit has
been denied for a long period, contract completion should be a high priority for the procurement
office. If the office is unable to complete the contract, it should request that the Frankfurt
Regional Procurement Support Office do so.

Recommendation 8: Embassy Helsinki should either prepare the contract for Finnish workers’
compensation, group life insurance, and unemployment insurance, or request that the Frankfurt
Regional Procurement Support Office handle the contracting action. (Action: Embassy Helsinki)

Travel

        The one-person travel section does not have a contract with a travel management center.
It works through a Finnish travel agency via a memorandum of understanding. The travel agency
gives the travel office access to its online booking software. There is a 10 euro fee per booked
ticket for travel within Europe. For travel outside Europe, the agency makes the booking for a
fee, based on the destination. The embassy plans to contract for its travel services.

       Travelers do not prepare their own travel authorizations; the travel assistant does so.
Embassy Helsinki plans to ask office managers to assume more travel duties, to include
preparing travel authorizations through E2 Solutions. To assure success, the embassy will
arrange E2 Solutions training for all responsible employees.

        Family travel for representational purposes is a concern in Helsinki. In addressing this
issue, regulations (14 FAM 532.1) are clear: “…The authorizing officer is expected to make
sparing and judicious use of this authorization. In all cases, the justification must demonstrate a
clear advantage to the United States.” Further provisions address travel within the country of
assignment, as well as documentation:

         As a general guideline, local travel of a family member should be authorized when:

         (1) Representation by the officer alone could not be accomplished effectively; or (2)
         Protocol or local customs would be served; or (3) The travel is necessary in connection
         with VIP visits or important meetings at which spouses of foreign dignitaries are present.
         (14 FAM 532.1-1(A)a.)

         The officials cited below in 14 FAM 532.1-2 must provide and sign a justification
         statement. For control and inspection purposes the authorizing officer should record and
         file the justification for authorizing representation travel. (14 FAM 532.1-1(C))


                                           20
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       The chief of mission, or principal officer where there is no immediate supervisor [at] post,
       may, subject to the availability of post travel funds, authorize such travel. This authorization
       may be redelegated only to the deputy chief of mission. (14 FAM 532.1-2(A)a.)

        Embassy Helsinki does not prepare a justification statement for representational
travel. An April 5, 2011 memorandum from the DCM addresses travel by the Ambassador’s
spouse: “The majority of invitations that [the ambassador] receives include his spouse…
Post will assume that as long as travel for representational purposes conforms to the
requirements of 14 FAM 532.1, [the spouse’s] travel with the Ambassador will be for official
purposes. For out of country travel, post will follow the procedures in 14 FAM 532.1-2(B)
and request advance approval from the assistant secretary for the regional bureau.” This
memorandum does not satisfy the FAM’s requirement for a signed justification statement for
each case of representation travel involving a family member.

Recommendation 9: Embassy Helsinki should prepare a justification statement for each case of
representational travel by family members. (Action: Embassy Helsinki)

Property Management and Warehousing

        The general services assistant, who is one of EUR’s property management experts,
oversees property management and warehousing. He is assisted by four staff members, three of
whom perform warehouse as well as clerical duties. A contract moving company moved all office
furniture and equipment from the annex to the swing spaces. Although the property management
staff did not record these property moves, the unit submitted a property management report to the
Department on May 10, 2011, just a few months after the original due date. It reported a
nonexpendable property shortage of $32,933, attributed in part to moving to the swing space. The
property disposal authorization and survey report indicated that the property management division
expects to find most of the reported missing items when it takes the next inventories.

        The Malmi warehouse is much bigger than it needs to be for its role. This situation and
the property management unit’s accommodating attitude have resulted in the warehouse being
filled with OBO materials, as well as $85,000 of OBO representational property and excess
embassy property. In addition, the warehouse hosts facility management workshops. The
warehouse is untidy and disorganized. It is time to reorganize and rationalize the Malmi
warehouse, so it can assume more important missions. Ridding the warehouse of excess property
and materials will enlarge the staging space for construction projects planned for Helsinki and
elsewhere.

Recommendation 10: Embassy Helsinki, in coordination with the Bureau of Overseas Buildings
Operations, should either make its representational property and construction, facility, and
security materials available to other Bureau of European and Eurasian Affairs posts, or dispose
of them. (Action: Embassy Helsinki, in coordination with OBO)

Recommendation 11: Embassy Helsinki should dispose of the excess, nonexpendable property
stored in the Malmi warehouse. (Action: Embassy Helsinki)



                                         21
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       Most embassy employees do not sign their residential inventories during their tours, as
required (14 FAM 416.3 a.). This oversight can lead to disagreements regarding the household
property entrusted to them.

       Informal Recommendation 13: Embassy Helsinki should require employees to sign
       residential property inventories in the first weeks after moving into permanent residences.

Customs and Shipping

       The two-person customs and shipping section provides highly regarded services. Its
Finnish Government interlocutors and commercial movers are described as good partners in the
customs clearance process. If EUR makes the Malmi warehouse a regional warehouse for a
number of countries (including Norway, Sweden, Denmark, and Estonia), the customs and
shipping section will be asked to clear shipments for these missions, without an increase in staff.
The OIG concluded that the section will be able to do so.

Material Movement

        The four-person material movement section handles all diplomatic post office mail
shipments, as well as some pouch shipments into and out of Moscow and St. Petersburg.
Commercial truckers transport mail and pouch shipments. Incoming mail is sorted and crated for
its onward trips to Moscow and St. Petersburg. Embassy Moscow is responsible for the
respective trucking charges, which are based on shipment weights. Neither Embassy Moscow
nor Consulate General St. Petersburg, however, contributes to the salary costs of the four ICASS
warehouse employees at Embassy Helsinki. Embassy Helsinki will soon move from ICASS Lite
to ICASS Standard. At that time, these costs need to be passed back to Embassy Moscow. The
mission plans to enter into a memorandum of understanding with Moscow for these services.

       Informal Recommendation 14: Embassy Helsinki, upon implementation of International
       Cooperative Administrative Support Services Standard, should invoice Embassy Moscow
       for the costs attributable to work performed by Malmi warehouse staff who support mail
       and pouch shipments to Moscow and St. Petersburg.

Facilities Management and Real Property

        As the principal embassy point of contact for OBO, the facility manager has provided
vital support to visiting OBO teams and has played a key role in the sewer project and
preparation of the swing space. The facility management office performs its maintenance
function well, despite a meager staff that consists of a carpenter, painter, electrician, gardener,
and two custodians. Commercial vendors frequently assist.

        Chancery buildings lack sophisticated equipment, such as chillers and heating systems.
Buildings are warmed via exchangers that use city generated heat. There are two emergency
electrical generators on the compound. With the major rehabilitation project, compound
buildings will contain modern mechanical and electrical systems, which will require
sophisticated facilities and preventive maintenance programs. With input from the facility
manager, OBO will determine the mix of LE staff and commercial contractors needed. With the

                                           22
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

large number of government owned offices and residential properties, the embassy could make a
business case for prudent staffing increases or for establishing more contractual relationships.

        The mission’s safety, health, and fire protection program is inadequate, as is its
occupational safety and health committee. Having abandoned the annex because of fire and safety
concerns, the mission’s employees now work in swing spaces without fire emergency plans. Such
plans are particularly crucial for those employees in the commercial building swing space.

       Informal Recommendation 15: Embassy Helsinki should activate its occupational safety
       and health committee and draw up fire emergency plans for the spaces occupied in
       commercial office buildings.

The Embassy Compound
        The 2.96-acre embassy compound includes a government-owned chancery building,
chancery annex, and the chief of mission residence. An OBO project to replace sewer lines in the
three buildings has just been completed. The $82 million major rehabilitation project includes
constructing an addition to the annex that will serve as a controlled access area; demolishing the
interior of the annex and reconstructing it as an unclassified building; refurbishing the chancery
building; and upgrading the chief of mission residence. When completed, the project should
enable the embassy to achieve Leadership in Energy and Environmental Design platinum status
for the annex.

The Malmi Warehouse

       The Malmi warehouse was established as a secure facility to serve Moscow, St.
Petersburg, and Yekaterinburg. Today it is an unsecure warehouse serving Embassy Helsinki,
with diplomatic post office mail responsibility for Moscow and St. Petersburg.

Human Resources
        The inspection team found the human resources office to be minimally staffed; only two
local employees serve the whole mission. When the human resources section moved to the swing
space, some routine activities were sidetracked. For example, at least 15 LE staff evaluation
reports are behind schedule. So that LE staff does not miss any within grade increases, the team
puts placeholder reports in their folders, stating that the employees are performing adequately.
This approach can perpetuate the problem, as rating officers postpone completing staff
evaluations. The management officer has not forwarded to the DCM a list of delinquent ratings.

Recommendation 12: Embassy Helsinki should implement a system for completing locally
employed staff performance appraisals, submit the names of delinquent filers to the deputy chief
of mission, and prohibit placeholder reports. (Action: Embassy Helsinki)

Language Designated Positions

        There are six language designated positions at Embassy Helsinki. Three are located in the
political section, two are in public diplomacy, and one is in the consular section. Five of the six
are designated at the 3/3 level (only the consular position is 2/2). The current PAO is a native
speaker and uses the language frequently, as does the political officer in charge of domestic
                                                 23
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

politics. The consular officer uses Finnish for public diplomacy outreach, but almost never needs
it for consular business. The other employees occupying language designated positions either do
not use the Finnish language or use it sparingly, since English is widely spoken in Finland at all
levels of society. While there is clearly a value in diplomats speaking the local language,
expertise in Finnish is not essential to the work of most of the officers who have learned it. The
Department estimates that Finnish language training costs between $105,000 and $125,000 per
student. The U.S. Government could realize savings of up to $500,000 per assignment cycle by
reducing Finnish language training.

Recommendation 13: Embassy Helsinki should convert four of its language designated
positions to non-language designated positions. (Action: Embassy Helsinki)

Value-Added Tax Reimbursements

        Like many other European capitals, Helsinki is expensive. To compensate, mission
employees receive a 60 percent cost-of-living allowance, based on a periodic retail price survey.
However, the survey does not take into account the value-added tax refunded to employees by
the Foreign Ministry. In Finland, virtually all purchases are eligible for value-added tax
reimbursements of between 9 percent and 23 percent of the price, and refunds are relatively easy
to obtain. In the first 9 months of 2010, the mission’s employees received approximately
$200,000 in value-added tax reimbursements. The OIG team also found that the Bureau of
Administration’s Office of Allowances does not regularly consider value-added tax
reimbursements when determining a post’s cost-of-living allowance.

Recommendation 14: The Bureau of Administration Office of Allowances should develop and
implement procedures to factor value-added tax reimbursements into Embassy Helsinki’s cost-
of-living allowance calculations. (Action: A)

Locally Employed Staff
       (b) (5)
                          per Finnish law, employees with children under the age of 8 can work
(and are paid proportionately) as few as 30 hours per week. Backup staff must be identified and
trained when this situation occurs. In the management office, for instance, the budget and fiscal
specialist occasionally fills in for the travel assistant. In other positions, the backups have not
been handled smoothly, causing gaps in coverage for important functions.

       Informal Recommendation 16: Embassy Helsinki should clearly delineate backup
       responsibilities for employees who have shortened work weeks, and should provide the
       backup employees with the appropriate training.

       As noted previously, the perception that their health care benefits are no longer in line
with comparators(b) (5)                        Finland has a national health care system, but
Finnish law may now require companies to provide private health care to their employees. The
embassy is consulting with counsel to determine applicability of this law to the U.S. mission.



                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Financial Management

       The financial management section has only four LE employees, all with substantial
experience and long service with the mission. The management counselor serves as the financial
management officer.

Cashiering
          (b) (5)




          Informal Recommendation 17: (b) (5)


        A reconciliation of the cash on hand validated the embassy’s funds accounting. Finland is
becoming a cashless society. Credit cards and electronic funds transfers are used so regularly that
cash payments are mostly reserved for tourists. Even the mission’s American employees simply
have their funds for in-country purchases directly deposited into their local bank accounts, thus
nearly eliminating the need for accommodation exchange. Most accommodation exchange
transactions are performed for visitors to Helsinki.

Budgeting

        In FY 2010, the mission’s program budget was about $3.3 million. In FY 2011, the
embassy received its full-year budget on May 16—8.5 months into the fiscal year. Many
discretionary programs such as training, awards, and travel were put on hold for this entire time,
(b) (5)


International Cooperative Administrative Support Services

       Aside from the Department, there are only three other agencies in the mission: the
Department of Defense, the U.S. Foreign Commercial Service, and the International
Broadcasting Bureau. ICASS budget for FY 2010 was $5,844,300, and the Department paid over
81 percent of that total. There was no carryover of ICASS funds into FY 2011, although some
value-added tax reimbursements were received after the end of the fiscal year and will be utilized
for FY 2011 purchases.

        As mentioned earlier, Embassy Helsinki is an ICASS Lite post. The ICASS Service
Center has decided to convert the embassy to an ICASS Standard post, and all agencies have
agreed. The senior financial specialist has received ICASS training and is knowledgeable about
ICASS Standard. Some members of the management team and other agency representatives,
however, do not have the knowledge to initiate the new system. A transition year will enable the
mission to better understand ICASS Standard. During this time, additional training is required.

                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 18: Embassy Helsinki should educate mission employees in
       International Cooperative Administrative Support Services Standard during the year it is
       transitioning from International Cooperative Administrative Support Services Lite to
       International Cooperative Administrative Support Services Standard.

       The Defense Attaché is the chairperson of the ICASS council. In fact, this position has
been held by the Defense Attaché and his predecessor for 5 years. The ICASS handbook
recommends that the ICASS chair rotate regularly among the participating agencies.

       Informal Recommendation 19: Embassy Helsinki should regularly rotate the
       International Cooperative Administrative Support Services council chairperson.

       The OIG team also found that the ICASS chairperson had not received ICASS training
before assuming his responsibilities.

       Informal Recommendation 20: Embassy Helsinki should provide International
       Cooperative Administrative Support Services training for the next International
       Cooperative Administrative Support Services council chairperson before he or she
       assumes the position’s responsibilities.

Representation

       In FY 2010, Embassy Helsinki received $48,400 in representational funds, of which $9,200
was reserved for PAS and $3,500 was returned at the end of the fiscal year. The remaining $35,700
was spread appropriately throughout the mission, with each office using a portion of the amount.
The Ambassador utilized about one-third, which is reasonable. In FY 2011, Embassy Helsinki
received $44,900 in representation funds.

Information Management and Information Security

        Embassy Helsinki’s IM program has been hampered by inadequate management and
leadership for several years. Actions by the previous IM officer led to a number of instances of
waste. The unit has implemented short-term remedies to allow operations to continue. An
outstanding, second-tour IM specialist served as the acting IM officer for a number of months.
To his credit, a number of issues have been addressed and the program has begun to improve.
The newly arrived IM officer is eager to continue moving the program in a positive direction.

        The void in previous management led to multiple failures during the mission’s renovation
project. Lack of planning during the transition resulted in a disruption in IM operations. The
telephone network is still struggling and remains a priority of the management section. The unit
staff’s morale is beginning to recover with the arrival of the new IM officer.

        The IM operations are located in the main chancery building. Support is provided to
several off-site operations spread throughout the city. These include: the Fulbright Center, the
British Embassy, Vilhonkatu building, Information Resource Center (known as the American
Resource Center), and Malmi warehouse. Providing support to these far-flung offices is
challenging.


                                          26
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The OIG team identified several areas in IM operations that require immediate attention.
These areas include management of the mission’s dedicated Internet network, removable media,
server room cabling, communication contracts, telephone operations, and training. Information
security issues are covered in the classified annex of this report.

Dedicated Internet Network Management

        The embassy is using multiple, off-the-shelf Ethernet routers to support the OpenNet
network. The routers are not Department approved and configured. A recent regional computer
security officer visit identified the need to replace the routers with Department approved network
switches. The IM officer has replaced four of the seven routers. (b) (5)


Recommendation 15: Embassy Helsinki should replace all nonapproved Ethernet routers with
Department approved routers. (Action: Embassy Helsinki)

        Embassy Helsinki has multiple dedicated Internet networks. The networks were established
to provide OpenNet connectivity (using remote access devices) during the annex renovation
project. Many of the dedicated Internet networks are no longer required for operations; the
embassy has agreed to consolidate them, as outlined in 5 FAM 872.1.

       Informal Recommendation 21: Embassy Helsinki should consolidate all dedicated
       Internet networks, based on Bureau of Information Resource Management criteria.

Communications Contracts

        Previous management hastily established the embassy’s cellular phone contract, which
resulted in excessive costs. The IM section has drafted a new cellular phone contract and is
awaiting procurement action. Other questionable IM service contracts may need recompetition.

Recommendation 16: Embassy Helsinki should conduct an analysis of all communications
contracts and should recompete any contracts that are not in the interest of the mission. (Action:
Embassy Helsinki)

Unclassified Server Room Cabling

         Ongoing, high-priority projects have left the information technology staff with minimal
time for cabling, and network cables in the unclassified server rooms are not organized and labeled
appropriately. Regulations (5 FAH-9 H-381) require IM staff to label infrastructure and equipment
components uniquely and legibly. Inadequately documented network cabling could hamper the
staff’s ability to fix network connectivity problems, and it increases the possibility of unauthorized
devices being introduced into the network.

Recommendation 17: Embassy Helsinki, in coordination with the Regional Information
Management Center in Frankfurt, should organize and appropriately label the unclassified server
room network cabling. (Action: Embassy Helsinki, in coordination with RIMC)


                                          27
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


    E-Services
           The e-Services application is a useful tool for managing administrative requests and
    services. The management office drafted, but did not disseminate, a management notice on the
    e-Services application. Even though the staff has been following the proposed guidance for the
    past year, having the formal notice would increase the use of this application in the embassy
    community.

           Informal Recommendation 22: Embassy Helsinki should complete and publish the
           e-Services management notice.
 (b) (5)




    Recommendation 18: (b) (5)


    Off-Site Support

            The IM staff does not regularly provide maintenance service to the Malmi warehouse.
    The warehouse operation includes 20 workstations and an OpenNet server. Preventive
    maintenance visits to a mission’s off-site locations are standard throughout the Department.
    According to IM management, lack of attention has been a primary reason for the disparity.
    Without regular site visits, the IM operations at the Malmi warehouse are susceptible to service
    interruptions and vulnerabilities.

           Informal Recommendation 23: Embassy Helsinki should conduct twice monthly
           maintenance visits to the Malmi warehouse.

    Handling Backup Media

           Local IM staff members carry Sensitive But Unclassified OpenNet network backup tapes from
    the chancery building to the old Fulbright office for off-site storage weekly, which creates the potential
    for media mishandling. Regulations state (12 FAM 622.1-7) that all Sensitive But Unclassified media
    must be handled by cleared U.S. citizens when being transported between facilities.

           Informal Recommendation 24: Embassy Helsinki should designate only those
           employees who are cleared U.S. citizens to transport Sensitive But Unclassified OpenNet
           backup media between facilities.
(b) (5)




                                              28
                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


       Informal Recommendation 25: (b) (5)


Training of Systems Staff

        The IM staff does not have a formal training plan. The OIG team reviewed the training
records and found them deficient. Helsinki’s deployed systems are too complex for learning
through trial and error. Network administrators should have appropriate training through formal
courses provided by the Foreign Service Institute. Without continuous technical training, the IM
staff will be unable to keep their knowledge and skills up to date.

Recommendation 19: Embassy Helsinki should provide training to all information management
staff members, according to their job functions and designated duties. (Action: Embassy
Helsinki)

Inaccurate Position Grading

        A number of the LE staff positions in the IM section are graded at a lower level than the
grades for similar positions at comparably sized missions. The disparity is due to a lack of
attention by previous IM management. In addition, none of the LE information systems staff
positions reflect current duties and responsibilities.

       Informal Recommendation 26: Embassy Helsinki should rewrite all position
       descriptions in the information resource management section to accurately reflect current
       duties and responsibilities, and then reevaluate the positions to determine their correct
       grade.

Telephone Operator

        Customer service survey scores indicate the mission’s dissatisfaction with the embassy
telephone service. Several staff members complained that they have often been unable to contact
the operator. The mission has one telephone operator, with the IM staff as backup. Management
should evaluate operator service and implement a process for providing effective telephone
service during business hours, including a formal backup operator plan.

Recommendation 20: Embassy Helsinki should make sure a telephone operator is accessible to
the embassy and incoming callers during working hours. (Action: Embassy Helsinki)

        The telephone operator estimates that the majority of the embassy’s incoming calls are
related to consular affairs. The consular section’s policy is to deal with routine, visa related
inquiries through email. Normally, the telephone operator directs visa callers to an information
phone tree or the consulate’s Web site, while directing American citizens services inquiries to
the consular section’s cell phone. The telephone operator is expected to use her judgment to
determine whether to connect a call through directly to the consular section. The consular section
should create clear, written instructions regarding how to handle consular calls, so that the
operators do not have to decide on their own about how to direct incoming calls.

                                         29
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 27: Embassy Helsinki should create clear, written guidance
       for the telephone operator to use regarding how to handle incoming consular calls.

Information Management Internship Program

       In previous years, Embassy Helsinki’s IM program included an unpaid internship
program. The program proved to be invaluable during the vacancy of a key systems
administrator. Management also has hired previous interns with knowledge and experience of
Department systems. Internship programs in general have been identified as a best practice at
other missions.

       Informal Recommendation 28: Embassy Helsinki should reestablish its information
       management internship program.




                                         30
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
       (b) (5)




Community Liaison Office

       The new CLO coordinator in Helsinki faces multiple challenges, (b) (5)
                                            She is a first-time CLO coordinator and has no
formal training. Although assigned to a 20-hour work week, the CLO coordinator is expected to
take over all the tasks (including producing an embassy newsletter) that previously were handled
by two people sharing a 40-hour job. Adding to these already significant challenges, the CLO
coordinator began work in January 2011, in the middle of the long Finnish winter, and in the
middle of the mission’s move to poorly prepared swing spaces around the city.

       Informal Recommendation 29: Embassy Helsinki should send its community liaison
       office coordinator to the next available regional training session.

        The CLO coordinator has instituted some important changes, especially in planning the
sponsorship program for newly arrived officers, which had been the object of numerous
complaints. She will need to make more information about educational options available to
arriving personnel, another area of dissatisfaction. Several spouses in the community have
established an ad hoc advisory committee to assist the CLO coordinator. Fortunately, embassy
management recently decided to advertise for the other part-time CLO coordinator position.
With another CLO coordinator, the office will be able to expand the quantity and quality of
information provided to mission personnel and increase community building activities to
improve morale.

Schools

       Overall, embassy parents are happy (b)(5)(b)(6)
                                                                                 Some parents,
however, expressed strong dissatisfaction with the school’s admission policies and what they
regard as insufficient embassy attention to those policies. Parents whose children did not get into
the school also claimed the embassy provided minimal information on viable alternatives.
       (b)(5)(b)(6)
                             It is accredited by the New England Association of Schools and
Colleges and the European Council of International Schools and has an international
                                          31
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

baccalaureate program. Most embassy parents are happy with the curriculum, faculty, and after
school activities. The appointment of a very experienced school director in July 2009 largely
resolved earlier complaints about communication difficulties between the school and the parents.

        Two problems remain. One is that embassy children are not guaranteed a place at the
school, especially if their applications are received late. The school’s director told the
Department’s regional education officer that the problem lay with the school’s admissions
officer, who resisted any attempt to “jump the queue” or otherwise grant priority to embassy
children. Given the large sums the school has received from the U.S. Government—over
$815,000 since 1975, including more than $32,000 in recent security grants—and the number of
U.S. Government children at the school, this issue merits attention from higher levels of mission
management.

       Informal Recommendation 30: Embassy Helsinki should work with management (b)(5)
       (b)(5)(b)(6)                                                                         (b)(6)
                                        to establish a process whereby embassy dependents are
       given priority placement in the school, as stipulated in the agreements for grants the U.S.
       Government has given to the school.

        Some parents also expressed concern over the lack of information on alternative schools.
The mission employees with school-age children need to receive more information about
schooling in Finland, including alternatives (b)(5)(b)(6)                          in advance of
their arrival.

       Informal Recommendation 31: Embassy Helsinki should obtain and provide to
       employees with school age children information about educational options, and should
       provide this information in time for parents to make decisions about schooling.

American Embassy Employee Association

        The mission’s American Embassy Employee Association is once again solvent. After a
period of financial losses, the organization is profitable, due to the elimination of its cafeteria
entity. An audit completed for the FY 2010 substantiated these facts, which suggests that it
would be inadvisable for the embassy to let the association run the cafeteria again.

       Informal Recommendation 32: Embassy Helsinki should not automatically reengage
       the American Embassy Employee Association to operate a cafeteria, once the annex
       reopens.

        Additionally the embassy does not have a license agreement with the association for
logistical support.

       Informal Recommendation 33: Embassy Helsinki should complete a license agreement
       with the American Embassy Employee Association.

Health Unit

        The health unit is staffed by an American citizen LE registered nurse, who has been in
the job for 12 years. The nurse receives good support from Embassy Moscow’s regional medical
officer and regional medical officer psychiatrist, as well as other medical consulting support. The
                                          32
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

regional medical officers typically had visited twice a year; visits have become more frequent
recently due to construction. For approximately 8 months, the health unit, which had been in the
basement of the chancery, has been located in a temporary structure on the embassy compound.
The medical unit is crowded and lacks a private consultation space.

         Survey scores indicated some dissatisfaction with the medical unit. The nurse’s primary
asset is her relationship with and access to medical care providers in Helsinki. A referral is
normally required to gain access to a Finnish hospital. Finland’s hospitals generally are
specialized and do not provide a wide range of care, but the quality of care is comparable to that
in the United States.

      Adequate medical supplies and equipment are not in an offsite safe haven. The few
medical supplies and equipment on hand are expired.

       Informal Recommendation 34: Embassy Helsinki should obtain and position
       appropriate medical supplies and equipment for an offsite safe haven.

Equal Employment Opportunity

       The embassy has an adequate Equal Employment Opportunity (EEO) program. The EEO
counselor has been trained and is aware of her responsibilities. An EEO LE staff liaison has been
named. There have been no EEO complaints during the last 3 years. As a result, attention to the
issue may have waned.

       Informal Recommendation 35: Embassy Helsinki should emphasize, at a country team
       meeting and by management notice, the importance of Equal Employment Opportunity in
       the mission community.

         While information regarding EEO is posted in some areas, the move to alternate
workplaces has meant that other areas still do not have bulletin boards on which to post EEO
literature.

       Informal Recommendation 36: Embassy Helsinki should post current Equal
       Employment Opportunity information in prominent locations in all temporary building
       work spaces.




                                          33
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        The DCM designated the management counselor as the post management controls
coordinator. The 2010 annual chief of mission management controls statement of assurance was
completed in July 2010. That report disclosed no significant management areas requiring
attention. In preparation for the report, the mission conducted an internal risk assessment and
determined that activities were conducted in accordance with law, government regulation, and
post policies.

         Much has changed since that time. The move to four outlying locations has created
vulnerabilities that were not present prior to the completion of last year’s statement of assurance.
Many of these vulnerabilities are discussed throughout this report. To the management
counselor’s credit, the embassy developed a 2011 management strategic plan that documents
over 20 areas where improvements are needed. This document should serve as a blueprint for the
2011 chief of mission management controls statement of assurance. The embassy has not
conducted a comprehensive risk assessment prior to completion of this year’s statement of
assurance. This risk analysis, coupled with the management strategic plan, should form the basis
for this year’s assurance memorandum to the EUR Assistant Secretary.

Recommendation 21: Embassy Helsinki should conduct a comprehensive risk assessment prior
to submitting the 2011 chief of mission management controls statement of assurance to the
Bureau of European and Eurasian Affairs. (Action: Embassy Helsinki)

Consular Management Controls

         The consular section takes management controls seriously and carefully documents them.
The move to the swing space has complicated accountability, because for several months
consular staff collected funds in the otherwise vacated chancery annex, and the Class B cashier
was in swing space across town. As a result, in January 2011, the financial management office
issued the “daily” cash receipts (Optional Form-158) only once every 3 days. Even after the
consular section moved into the swing space in April 2011, the Class B cashier issued OF-158s
on only 8 days of the month, due to a scheduling conflict between the consular and financial
management offices. In any case, the section did not issue Optional Form-158s the day after
receiving the cash from the consular subcashier, as required by 7 FAH-1 H-771.2-7. During the
inspection, the consular section and financial management office agreed to a schedule of deposits
that allows for daily deposit of cash and next-day processing of the Optional Form-158s, and
they were consistently following that schedule.

Machine Readable Visa Fees

        Because Finns extensively use electronic payments, they pay the machine readable visa
fee directly into an account expressly set up for that purpose. The proof of payment can be any
sort of document that shows the successful deposit. Because of the possibility of fraud, the
consular section confirms all third-country applicants’ deposits and a small sample of Finnish
applicants’ deposits. The procedure seems to work well, and the section has not detected any
fraud. On occasion, however, the consular subcashier accepts payment for machine readable visa
                                          34
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

fees at the interview window, without determining why the applicant has not used the off-site
collection facility. This arrangement causes additional work for the consular subcashier, the
Class B cashier (because machine readable visa fees must be cash), and the accountable consular
officer.

       Informal Recommendation 37: Embassy Helsinki should cease allowing visa applicants
       to pay their machine readable visa fees at the consular section, except for exigent cases.

        The agreement with Nordea, the Finnish bank that collects the machine readable visa
fees, calls for the receipts to be collected and deposited into the U.S. disbursing office account
every week, rather than on the next business day, as required (7 FAH-1 H-752 a.). The result is
that the U.S. Government loses use of the money that is collected for consular fees, and some
fees are credited to the U.S. Government well after the consular section has rendered the service.

       Informal Recommendation 38: Embassy Helsinki should revise its agreement with
       Nordea Bank, so that machine readable visa fees deposited into the consular sections
       account are moved into the U.S. disbursing officer’s account daily, rather than weekly.

       The accountable consular officer routinely checks the amount of cash received by the
U.S. disbursing officer against consular visa processing, and has not found any discrepancies.

Other Consular Fee Issues

        While the section collects the majority of its fees electronically, an unusual number of
collections (considering that Finland has a largely cashless economy) are made in cash. The
consular staff opined that the public did not understand that it is possible to pay by credit card.
The section agreed to increase publicity of the credit card option, in order to provide better
service to the consular public, as outlined in 7 FAH-1 H-761 a.

        The consular section uses the exchange rate notified by the U.S. Embassy in Paris, as
required by 7 FAH-1 H-724.2 c. In January 2011, the rate was set at 0.75 euros to the U.S. dollar.
During the month, however, the U.S. disbursing officer’s daily rate varied from 0.74 to 0.77
euros to the dollar. In the middle of January, the daily rate was over the consular rate of 0.75,
contrary to 7 FAH-1 H-724.2 a. The U.S. Embassy in Paris did not raise the consular exchange
rate in mid January, as the U.S. dollar strengthened. As a result, the U.S. Government collected
less money in U.S. dollars for its consular transactions than is shown on the schedule of consular
fees at all U.S. embassies that follow Embassy Paris’s exchange rate.

Recommendation 22: The Bureau of Consular Affairs should keep the Euro Zone consular
exchange rate at or above the U.S. disbursing officer’s daily rate of exchange rate at all times.
(Action: CA)




                                           35
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Helsinki should work with its locally employed staff to
establish a representative, elected, locally employed staff committee, and should meet with this
committee on a regular basis to recognize and resolve issues of interest to locally employed staff.
(Action: Embassy Helsinki)

Recommendation 2: Embassy Helsinki should bring its political/economic section’s files into
compliance with Department of State regulations on records management. (Action: Embassy
Helsinki)

Recommendation 3: Embassy Helsinki, in coordination with the Bureau of Overseas
Buildings Operations, should install sound absorbing materials on both sides of the consular
interview windows, including the floor, ceiling, and walls. (Action: Embassy Helsinki, in
coordination with OBO)

Recommendation 4: (b) (5)


Recommendation 5: (b) (5)



Recommendation 6: The Bureau of European and Eurasian Affairs should provide Embassy
Helsinki with guidelines and procedures for allocating and controlling the League of Green
Embassies Funds. (Action: EUR, in coordination with Embassy Helsinki)

Recommendation 7: Embassy Helsinki should develop and submit to the Bureau of Overseas
Buildings Operations a business case for selling one of the four Kavallintie properties and
retaining the proceeds of the sale to rehabilitate the remaining three properties. (Action: Embassy
Helsinki, in coordination with OBO)

Recommendation 8: Embassy Helsinki should either prepare the contract for Finnish workers’
compensation, group life insurance, and unemployment insurance, or request that the Frankfurt
Regional Procurement Support Office handle the contracting action. (Action: Embassy Helsinki)

Recommendation 9: Embassy Helsinki should prepare a justification statement for each case
of representational travel by family members. (Action: Embassy Helsinki)

Recommendation 10: Embassy Helsinki, in coordination with Bureau of Overseas Buildings
Operations, should either make its representational property and construction, facility, and
security materials available to other Bureau of European and Eurasian Affairs posts, or dispose
of them. (Action: Embassy Helsinki, in coordination with OBO)

Recommendation 11: Embassy Helsinki should dispose of the excess, nonexpendable
property stored in the Malmi warehouse. (Action: Embassy Helsinki)


                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Helsinki should implement a system for completing locally
employed staff performance appraisals, submit the names of delinquent filers to the deputy chief
of mission, and prohibit placeholder reports. (Action: Embassy Helsinki)

Recommendation 13: Embassy Helsinki should convert four of its language designated
positions to non-language designated positions. (Action: Embassy Helsinki)

Recommendation 14: The Bureau of Administration Office of Allowances should develop and
implement procedures to factor value-added tax reimbursements into Embassy Helsinki’s cost-
of-living allowance calculations. (Action: A)

Recommendation 15: Embassy Helsinki should replace all nonapproved Ethernet routers with
Department approved routers. (Action: Embassy Helsinki)

Recommendation 16: Embassy Helsinki should conduct an analysis of all communications
contracts and should recompete any contracts that are not in the interest of the mission. (Action:
Embassy Helsinki)

Recommendation 17: Embassy Helsinki, in coordination with the Regional Information
Management Center in Frankfurt, should organize and appropriately label the unclassified server
room network cabling. (Action: Embassy Helsinki, in coordination with RIMC)

Recommendation 18: (b) (5)


Recommendation 19: Embassy Helsinki should provide training to all information
management staff members, according to their job functions and designated duties. (Action:
Embassy Helsinki)

Recommendation 20: Embassy Helsinki should make sure a telephone operator is accessible
to the embassy and incoming callers during working hours. (Action: Embassy Helsinki)

Recommendation 21: Embassy Helsinki should conduct a comprehensive risk assessment
prior to submitting the 2011 chief of mission management controls statement of assurance to the
Bureau of European and Eurasian Affairs. (Action: Embassy Helsinki)

Recommendation 22: The Bureau of Consular Affairs should keep the Euro Zone consular
exchange rate at or above the U.S. disbursing officer’s daily rate of exchange rate at all times.
(Action: CA)




                                          37
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Helsinki should hold a country team meeting every
other week at one of the temporary office spaces.

Informal Recommendation 2: Embassy Helsinki should coordinate with the Office of Nordic
and Baltic Affairs, to develop and implement a revised reporting plan that reflects U.S.
Government consumers’ interest in more frequent reporting, including more economic reporting.

Informal Recommendation 3: Embassy Helsinki should examine its multiple social media
sites and determine how many of them it can adequately maintain, developing those with largest
audience share and eliminating others.

Informal Recommendation 4: Embassy Helsinki should develop a plan to tap private sector
sources to continue or expand its new youth exchange program.

Informal Recommendation 5: Embassy Helsinki should require the public affairs officer-
designate and the new assistant public affairs officer to take grants management training and
obtain grants warrants prior to assuming their new positions.

Informal Recommendation 6: Embassy Helsinki should provide a visa referral class for all
section chiefs, agency heads, and their office management specialists.

Informal Recommendation 7: Embassy Helsinki should require the Ambassador’s office
manager to provide the motor pool dispatcher with the Ambassador’s weekend driver
requirements by noon Friday, whenever possible.

Informal Recommendation 8: Embassy Helsinki should arrange for the drivers to take their
required vision and physical examinations.

Informal Recommendation 9: Embassy Helsinki should return the mailroom clerk to his
assigned position.

Informal Recommendation 10: (b) (5)


Informal Recommendation 11: Embassy Helsinki should meet with all individuals who
participate in procurement and educate them about proper procurement procedures and how to
avoid unauthorized commitments.

Informal Recommendation 12: Embassy Helsinki should determine the specific lighting
requirements at the deputy chief of mission’s residence and process this procurement.
                                         38
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 13: Embassy Helsinki should require employees to sign residential
property inventories in the first weeks after moving into permanent residences.

Informal Recommendation 14: Embassy Helsinki, upon implementation of International
Cooperative Administrative Support Services Standard, should invoice Embassy Moscow for the
costs attributable to work performed by Malmi warehouse staff who support mail and pouch
shipments to Moscow and St. Petersburg.

Informal Recommendation 15: Embassy Helsinki should activate its occupational safety and
health committee and draw up fire emergency plans for the spaces occupied in commercial office
buildings.

Informal Recommendation 16: Embassy Helsinki should clearly delineate backup
responsibilities for employees who have shortened work weeks, and should provide the backup
employees with the appropriate training.

Informal Recommendation 17: (b) (5)


Informal Recommendation 18: Embassy Helsinki should educate mission employees in
International Cooperative Administrative Support Services Standard during the year it is
transitioning from International Cooperative Administrative Support Services Lite to
International Cooperative Administrative Support Services Standard.

Informal Recommendation 19: Embassy Helsinki should regularly rotate the International
Cooperative Administrative Support Services council chairperson.

Informal Recommendation 20: Embassy Helsinki should provide International Cooperative
Administrative Support Services training for the next International Cooperative Administrative
Support Services council chairperson before he or she assumes the position’s responsibilities.

Informal Recommendation 21: Embassy Helsinki should consolidate all dedicated Internet
networks, based on Bureau of Information Resource Management criteria.

Informal Recommendation 22: Embassy Helsinki should complete and publish the e-Services
management notice.

Informal Recommendation 23: Embassy Helsinki should conduct twice monthly maintenance
visits to the Malmi warehouse.

Informal Recommendation 24: Embassy Helsinki should designate only those employees who
are cleared U.S. citizens to transport Sensitive But Unclassified OpenNet backup media between
facilities.

Informal Recommendation 25: (b) (5)




                                         39
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 26: Embassy Helsinki should rewrite all position descriptions in
the information resource management section to accurately reflect current duties and
responsibilities, and then reevaluate the positions to determine their correct grade.

Informal Recommendation 27: Embassy Helsinki should create clear, written guidance for the
telephone operator to use regarding how to handle incoming consular calls.

Informal Recommendation 28: Embassy Helsinki should reestablish its information
management internship program.

Informal Recommendation 29: Embassy Helsinki should send its community liaison office
coordinator to the next available regional training session.

Informal Recommendation 30: Embassy Helsinki should work with management (b)(5)
(b)(5)(b)(6)                                                                           (b)(6)
                                  to establish a process whereby embassy dependents are given
priority placement in the school, as stipulated in the agreements for grants the U.S. Government
has given to the school.

Informal Recommendation 31: Embassy Helsinki should obtain and provide to employees
with school age children information about educational options, and should provide this
information in time for parents to make decisions about schooling.

Informal Recommendation 32: Embassy Helsinki should not automatically reengage the
American Embassy Employee Association to operate a cafeteria, once the annex reopens.

Informal Recommendation 33: Embassy Helsinki should complete a license agreement with
the American Embassy Employee Association.

Informal Recommendation 34: Embassy Helsinki should obtain and position appropriate
medical supplies and equipment for an offsite safe haven.

Informal Recommendation 35: Embassy Helsinki should emphasize, at a country team
meeting and by management notice, the importance of Equal Employment Opportunity in the
mission community.

Informal Recommendation 36: Embassy Helsinki should post current Equal Employment
Opportunity information in prominent locations in all temporary building work spaces.

Informal Recommendation 37: Embassy Helsinki should cease allowing visa applicants to pay
their machine readable visa fees at the consular section, except for exigent cases.

Informal Recommendation 38: Embassy Helsinki should revise its agreement with Nordea
Bank, so that machine readable visa fees deposited into the consular sections account are moved
into the U.S. disbursing officer’s account daily, rather than weekly.




                                         40
                             SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials

                              Name                    Arrival Date
Ambassador                    Bruce J. Oreck          08/2009
Deputy Chief of Mission       Daniel J. Hall          08/2010
Chiefs of Sections:
 Administrative               Russell W. Jones        08/2009
 Consular                     Eric S. Meyer           08/2008
 Political/Economic           Scott A. Brandon        08/2008
 Public Affairs               Marjut H. Robinson      08/2010
 Regional Security            Joseph A. Castro        08/2010
Other Agencies:
 Department of Defense        Col. David B. Royal     03/2009
 Foreign Commercial Service   Nicholas R. Kuchova     09/2009




                                     41
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors
CLO             Community liaison office
DCM             Deputy chief of mission
Department      Department of State
EEO             Equal Employment Opportunity
ESTH            Environment, science, technology, and health
EUR             Bureau of European and Eurasian Affairs
GSO             General services officer
ICASS           International Cooperative Administrative Support Services
IM              Information management
LE              Locally employed
MSRP            Mission Strategic and Resource Plan
NATO            North Atlantic Treaty Organization
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
PAO             Public affairs officer
PAS             Public affairs section




                            42
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
